No. 20-3012

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

RAMONE L. WRIGHT.
Petitioner-Appellant,
v.
UNITED STATES OF AMERICA,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)

May 18, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: MURPHY, Circuit Judge.

Ramone L. Wright, a federal prisoner proceeding pro se, appeals a district court judgment
denying his 28 U.S.C. § 2255 motion to vacate, set aside, or correct his sentence. The court
construes the notice of appeal as a request for a certificate of appealability. See 28 U.S.C.
§ 2253(c); Fed. R. App. P. 22(b)(2). Wright has filed a motion to proceed in forma pauperis.
The district court sentenced Wright to 180 months of imprisonment after pleading guilty
pursuant to a Federal Rule of Criminal Procedure 11(c)(1)(C) plea agreement to two counts of
interstate robbery, in violation of 18 U.S.C. § 1951; and two counts of brandishing a firearm during
the commission of a crime of violence, in violation of 18 U.S.C. § 924(c)(l)(A)(ii). Wright
appealed, and this court dismissed the appeal as untimely. United States v. Wright, No. 17-3642
(6th Cir. Sept. 1, 2017) (order). Wright then filed a § 2255 motion, arguing that he received
ineffective assistance of counsel when counsel allowed him to enter a guilty plea while under the
influence of the prescription drug Remeron, when counsel failed to review his presentence report
with him, and when counsel failed to raise any objections at sentencing. Subsequently, Wright
filed a motion to amend, which the district court denied as untimely and because the proposed
amendment was frivolous. The district court then denied the § 2255 motion and declined to issue
a certificate of appealability. Wright v. United States, No. 2:16-cr-00059 (S.D. Ohio Dec. 6,2019).

/tty&LDix

A

No. 20-3012
-2A certificate of appealability may be issued “only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). To satisfy this standard,
the petitioner must demonstrate “that jurists of reason could disagree with the district court’s
resolution of his constitutional claims or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003). When the district court’s denial is on the merits, “[t]he petitioner must demonstrate that
reasonable jurists would find the district court’s assessment of the constitutional claims debatable
or wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
The Sixth Amendment provides that, “[i]n all criminal prosecutions, the accused shall
enjoy the right... to have the Assistance of Counsel for his defence.” U.S. Const, amend. VI.
And the Supreme Court has held that this right to the assistance of counsel includes “the right to
the effective assistance of counsel” during “critical stages” of a prosecution, including the entry of
a guilty plea. Strickland v. Washington, 466 U.S. 668, 686 (1984); Turner v. United States, 885
F.3d 949, 952-53 (6th Cir. 2018) (en banc) (citing Missouri v. Frye, 566 U.S. 134, 140 (2012)).
To prove constitutionally ineffective assistance of counsel, a petitioner must show that his
attorney’s performance was objectively unreasonable and that he was prejudiced as a result.
Strickland, 466 U.S. at 687. “[A] court must indulge a strong presumption that counsel’s conduct
falls within the wide range of reasonable professional assistance; that is, the defendant must
overcome the presumption that, under the circumstances, the challenged action ‘might be
considered sound trial strategy.’” Id. at 689 (quoting Michel v. Louisiana, 350 U.S. 91, 101
(1955)). Generally, prejudice means “a reasonable probability” that “but for such conduct the
outcome of the proceedings would have been different.” Williams v. Anderson, 460 F.3d 789, 800
(6th Cir. 2006). In the plea-entry context, prejudice means “a reasonable probability that, but for
counsel’s errors, [the defendant] would not have pleaded guilty and would [instead] have insisted
on going to trial.” Hill v. Lockhart, 474 U.S. 52, 59 (1985). “Surmounting Strickland’s high bar
is never an easy task.” Harrington v. Richter, 562 U.S. 86, 105 (2011) (quoting Padilla v.
Kentucky, 559 U.S. 356, 371 (2011)).

No. 20-3012
-3-

Wright argues that he received ineffective assistance of counsel when counsel allowed him
to enter a guilty plea while under the influence of the antidepressant drug Remeron. Specifically,
Wright asserts that because Remeron can cause disorientation and hallucinations, his guilty plea
was not knowing, intelligent, and voluntary. However, Wright has failed to make a substantial
showing that counsel acted unreasonably by letting him enter a guilty plea because he identifies
no evidence in support of his assertion that Remeron affected his ability to understand the nature
of the plea proceedings. Indeed, at the change of plea hearing, Wright told the district court that
Remeron did not affect his ability to understand the nature of the plea proceedings. Based on its
observations during the hearing, the district court found that Wright’s guilty plea was knowing,
intelligent, and voluntary. And Wright has presented no evidence that the drug had ever caused
him to feel disoriented or to hallucinate. Wright thus has not shown either that his counsel was
constitutionally deficient in allowing him to enter a guilty plea while on his antidepressant
medication or that there is a reasonable probability that, but for any error, he would have rejected
the favorable plea deal and insisted on going to trial. Accordingly, reasonable jurists would not
debate the district court’s rejection of this claim.
Wright also argues that he received ineffective assistance of counsel when counsel failed
to review his presentence report with him and raise objections at sentencing. Wright does not
identify any objection his counsel should have raised at sentencing. And Wright’s counsel averred
that he spent nearly two hours reviewing the report with Wright beforehand and that Wright had
no objections to the report. But even assuming Wright made a substantial showing that his counsel
provided deficient assistance, Wright has not made a substantial showing of prejudice because the
binding plea agreement provided for a 180-month sentence and no objection by counsel to the
presentence report or at sentencing could have affected the agreed-upon sentence. Accordingly,
reasonable jurists would not debate the district court’s rejection of this claim.
Finally, reasonable jurists would not debate the district court’s decision to deny the motion
to amend to add Wright’s claim that he received ineffective assistance of counsel when counsel
failed to object to a defect in the indictment. Wright argues that his indictment was defective

No. 20-3012
-4-

because it failed to specify whether he was being charged with violating 18 U.S.C. § 1951(a) or
(b). But § 1951’s single criminal prohibition appears only in subsection (a); subsection (b) merely
contains the statutory definitions of a few terms in subsection (a). The indictment’s citation of
§ 1951 thus satisfied Federal Rule of Criminal Procedure 7(c)(l)’s requirements, so Wright’s
indictment was not defective and Wright’s claim to the contrary was meritless. Accordingly,
reasonable jurists would not debate the district court’s denial of Wright’s motion to amend.
Accordingly, the court DENIES the application for a certificate of appealability and
DENIES the motion to proceed in forma pauperis as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 2:16-cr-00059-MHW-MRM Dot #:'8$ Filed: 12/06/19 Page: 1 of 1 PAGEID #: 356
**AO 450 (Rev. 5/85) Judgment in a Civil Case

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
JUDGMENT IN A CIVIL CASE
Ramone L. Wright,
vs.
United States of America,

Case No. 2:18-cv-120
2:16-cr-59
Judge Michael H. Watson

□ Jury Verdict. This action came before the Court for a trial by jury. The issues have
been tried and the jury has rendered its verdict.
□ Decision by Court. This action came to trial or hearing before the Court. The issues
have been tried or heard and a decision has been rendered.
[X] Decision by Court. This action was decided by the Court without a trial or hearing.
IT IS ORDERED AND ADJUDGED that pursuant to the December 6, 2019 Opinion and
Order, the Report and Recommendation is ADOPTED and AFFIRMED. The
Motion to Vacate is DENIED.

Date: December 6, 2019

Richard Nagel, Clerk

s/ Jennifer Kacsor
By Jennifer Kacsor/Courtroom Deputy

. '

Case: 2:16-cr-00059-MHW-MRM Doc'#: 88 filed: 12/06/19 Page: 1 of 6 PAGEID #: 350

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
Ramone L. Wright,
Movant,
v.

Crim. Case No. 2:16-cr-59
Civ. Case No. 18-CV-120
Judge Michael H. Watson
Magistrate Judge Michael R. Merz

United States of America,
Respondent.
OPINION AND ORDER
On May 9,2019, the Magistrate Judge issued a Report and
Recommendation (“R&R") recommending that Movant’s motion to vacate under
28 U.S.C. § 2255 be denied. ECF No. 84. Movant has objected to the R&R.
ECF No. 86. Pursuant to 28 U.S.C. § 636(b), this court has conducted a de novo
review. For the reasons that follow, Movant's objections are OVERRULED. The
R&R is ADOPTED and AFFIRMED. The motion to vacate is DENIED. ECF No.
60. The Court DISMISSES this action; DECLINES to issue a certificate of
appealability; and CERTIFIES that any appeal would be objectively frivolous.
Pursuant to a negotiated plea agreement, Movant was convicted of two
counts of violating the Hobbs Act, 18 U.S.C § 1951, and two counts of
brandishing a firearm during the commission of a crime of violence in violation of
18 U.S.C. § 924(c)(1)(A)(ii). ECF No. 49-1. Movant challenges that conviction in
his motion to vacate, alleging that he received ineffective assistance of counsel

. ' . Case: 2:16-cr-00059-MHW-MRM Doc; #: 88 Filed: 12/06/19 Page: 2 of 6 PAGEID #: 351

during plea negotiations because counsel allowed him to plead guilty while he
was taking the prescription drug Remeron. The Magistrate Judge concluded that
Movant had failed to demonstrate that counsel’s performance was deficient
under Strickland v. Washington, 466 U.S. 668 (1984) because Movant failed to
produce any evidence indicating that the prescription pills impacted his judgment.
Movant objects to this conclusion because “Remeron was prescribed to
[Movant] for anti-psychotic symptoms by a licensed psychiatrist. Remeron
document that was submitted to the court was provided by BOP official record
(medical file).” ECF No. 86, at PAGE ID #341. Movant further objects because
the Magistrate Judge is not a licensed psychiatrist. Id. These objections are
without merit. The issue is not why Movant was taking the pills, or if he was
taking them because a doctor had prescribed them. The issue is whether the
pills impacted Movanfs ability to understand the plea proceedings. Movant has
produced no evidence indicating that they did. As the Magistrate Judge correctly
noted, at the plea hearing Movant testified that he was taking Remeron but that it
did not affect his ability to understand the proceedings. Transcript, ECF No. 52,
at PAGE ID # 160. That statement is entitled to a great presumption of
truthfulness. Blackledge v. Allison, 431 U.S. 63, 74 (1977). In addition, the side
effects listed in the drug information pamphlet that Movant has submitted do not
indicate that the drug might cause issues that could impact understanding. ECF
No. 80, at PAGE ID # 287. Therefore, Movant’s late breaking and conclusory
Case Nos. 2:16-cr-59; 2:18-cv-120

Page 2 of 6

. • . Case: 2:16-cr-00059-MHW-MRM DoC #: 88 Filed: 12/06/19 Page: 3 of 6 PAGEID #: 352

assertion that he was unable to understand the nature of the proceedings
because he was taking RemerOn— which flatly contradicts the statement that he
made in open court— is simply not enough to overcome the presumption of
truthfulness afforded to his in-court statement.
Moreover, the Undersigned recalls Movant's demeanor and appearance in
open court during the plea hearing. Movant appeared lucid and capable of
understanding the nature of the proceeding. He was given time to consider his
position, how he wished to proceed, and to consult with his attorney. He
answered the Court’s questions under oath in a cogent and coherent manner
including the Court's question about whether the Remeron impacted his ability to
understand the proceedings. The Court’s impression is buttressed by the fact
that defense counsel indicated at the hearing that he had no problem speaking
with Movant during a recess, Transcript, ECF No. 52, at PAGE ID # 162, and by
counsel’s subsequent declaration, which avers that Movant’s abilities did not
appear to be impacted by his medications, Affidavit, If 7, ECF No. 79, at PAGE ID
# 281. For these reasons, Movant’s objection is OVERRULED, and the
Magistrate Judge’s conclusion is ADOPTED and AFFIRMED.
The Magistrate Judge also reached a number of other conclusions. With
regard to counsel's performance during plea negotiations, the Magistrate Judge
concluded that Movant failed to establish that counsel’s performance was
prejudicial under Strickland given that the plea agreement resulted in a sentence
Case Nos. 2:16-cr-59; 2:18-cv-120

Page 3 of 6

. * . Case: 2:16-cr-00059-MHW-MRM Doc' #: 88 Filed: 12/06/19 Page: 4 of 6 PAGEID #: 353

that was significantly lower than the one Movant risked receiving at trial given the
substantial evidence of his guilt. The Magistrate Judge also concluded that
Movant failed to establish deficient performance or prejudice with regard to his
claim that counsel was ineffective for failing to review with him the Presentence
Investigation Report or raise objections at the sentencing hearing. Further, the
Magistrate Judge concluded that Movant had waived a number of claims related
to the voluntariness of his plea— claims raised for the first time in his Reply—
because he had waived the right to directly appeal his conviction subject to
certain exceptions. Movant failed to object to any of these conclusions.
Therefore, they are ADOPTED and AFFIRMED. The Court agrees with the
Magistrate Judge and finds that Movant is not entitled to relief on any of the
grounds that Movant raised in the motion to vacate or that he raised for the first
time in his Reply.
In his objections, Movant also raises new grounds that he did not assert in
his motion to vacate. Specifically, Movant alleges that his plea was not knowing,
intelligent, and voluntary because the government failed to disclose materials in
violation of Brady v. Maryland, 373 U.S. 83 (1963) and because of judicial
involvement in plea negotiations. Because neither of these ground for relief were
alleged in the motion to vacate, they were not before the Magistrate Judge when
the R&R was issued.

Case Nos. 2:16-cr-59; 2:18-cv-120

Page 4 of 6

, * . Case: 2:16-cr-00059-MHW-MRM Doe’ #: 88 Filed: 12/06/19 Page: 5 of 6 PAGEID #: 354

In any event, the Court finds that Movant’s attempts to amend his motion
and bring these new grounds are barred by the statute of limitations. The
amended judgment of sentence was entered February 15,2017. ECF No. 49.
As a result, Petitioner had fourteen days, or until March 1,2017, to file a timely
direct appeal. See Fed. App. R. 4(b)(1)(A). He did not do so. Consequently, the
one-year statute of limitations to file a motion to vacate began running on March
2,2017, and it expired one year later on March 2, 2018. See 28 U.S.C.
§ 2255(f)(1). These new grounds were raised, however, in Movant's objections,
which are dated May 23,2019. These grounds do not relate back to the claims
in the original motion to vacate, and thus, amendment is futile. See Dado v.
United States, No. 17-2013, 2018 WL1100279, at * 3 (6th Cir. Feb. 15, 2018)
(citing Mayie v. Felix, 545 U.S. 644,650 (2005) (finding that district court did not
err in denying attempt to amend a motion to vacate; an amended petition does
not escape the one-year statute of limitations if it asserts new grounds for relief
that rely on alleged facts that differ in both time and type from those alleged in
the original pleading)); United States v. Clark, 637 F. App’x 206,209 (6th Cir.
2016) (explaining that “[a] party cannot amend a § 2255 petition to add a
completely new claim after the statute of limitations has expired”) (internal
citations omitted); Howard v. United States, 533 F.3d 472,475-76 (6th Cir.
2008). Moreover, Movant does not allege, and the record does not reflect, any
basis for tolling the statute of limitations.
Case Nos. 2:16-cr-59; 2:18-cv-120

Page 5 of 6

. • .Qase: 2:16-cr-00059-MHW-MRM Doc?#: 88cFi1ed: 12/06/19 Page: 6 of 6 PAG El D #: 355

For these reasons, the R&R, ECF No. 84, is ADOPTED and AFFIRMED.
The Clerk is DIRECTED to terminate ECF Nos. 60 and 84 and enter final
judgment.
IT IS SO ORDERED.
MICHAEL H. WATSON, JUDGE
UNITED STATES DISTRICT COURT

Case Nos. 2:16-cr-59; 2:18-cv-120

Page 6 of 6

Case: 2:16-cr-00059-MHW-MRM Doc #: 68 Filed: 04/20/18 Page: 1 of 7 PAGEID #: 225

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF OHIO
EASTERN DIVISION
RAMONE L. WRIGHT,
CRIM CASE NO. 2:16-CR-00059
CIV CASE NO. 18-CV-00120
Judge Michael H. Watson
Magistrate Judge Kimberly A. Jolson

Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.
REPORT AND RECOMMENDATION
AND ORDER
This matter is before the Court on Respondent’s Motion to Hold Answer in Abeyance,
(Doc. 63), Petitioner’s Motion to Amend (Doc. 65), and Petitioner’s Motion to Waive Attorney
Client Privilege (Doc. 66). For the reasons that follow, Respondent’s Motion to Hold Answer in
Abeyance (Doc. 63) and Petitioner’s Motion to Waive Attorney Client Privilege (Doc. 66) are
GRANTED, subject to the limitations described herein. Respondent shall have fourteen (14)
days from the date of this Order to file an answer, motion, or other response to Petitioner’s
motion to vacate in accordance with the provisions of Rule 5 of the Rules Governing § 2255
Proceedings in the United States District Courts. Petitioner may have twenty-one (21) days
thereafter to submit a reply to Respondent’s answer or other pleading.

Further, it is

RECOMMENDED that Petitioner’s Motion to Amend (Doc. 65) be DENIED.

I.

BACKGROUND
Pursuant to a negotiated plea agreement, Petitioner, a federal prisoner, was convicted of

two counts of violating the Hobbs Act, 18 U.S.C § 1951, and two counts of brandishing a firearm
during the commission of a crime of violence in violation of 18 U.S.C. § 924(c)(l)(A)(ii). (Doc.

Case: 2:16-cr-00059-MHW-MRM Doc #: 68 Filed: 04/20/18 Page: 2 of 7 PAGEID #: 226

49-1). Petitioner was sentenced on February 15, 2017. (Id.). Petitioner filed an appeal of that
judgment on June 14, 2017. (Doc. 53). On September 1, 2017, the Sixth Circuit Court of
Appeals dismissed that appeal sua sponte as untimely without prejudice to any remedies
Petitioner may have under 28 U.S.C. § 2255. (Doc. 56).
On February 14, 2018, Petitioner moved this Court to vacate, set aside, or correct his
sentence pursuant to § 2255, asserting that he was denied the effective assistance of trial counsel
at the plea agreement and sentencing stages. (Doc. 60). On March 5, 2018, Respondent was
ordered to answer Petitioner’s motion to vacate by March 26, 2018. (Doc. 62). Respondent
subsequently moved this Court to hold that answer date in abeyance pending Petitioner’s waiver
of his attorney-client privilege asserting that Respondent could not answer Petitioner’s
allegations without such a waiver. (Doc. 63). Because Petitioner’s memorandum in opposition
to Respondent’s motion to hold in abeyance was due April 3, 2018, the Court stayed the answer
date until after the April 3, 2018, deadline expired. (Doc. 64). Petitioner did not, however,
oppose the motion to hold in abeyance. Instead, on March 23, 2018, Petitioner filed a Motion to
Waive Attorney-Client Privilege. (Doc. 66). Petitioner’s motion to waive privilege incorrectly
indicates that this action is pending in the United States District Court for the Northern District
of Ohio. (Id.). Respondent did not oppose Petitioner’s motion to waive privilege or otherwise
indicate that Petitioner’s motion would not suffice as a formal waiver.
In the interim, on March 16, 2018, Petitioner filed a Motion to Amend his § 2255 motion
to vacate pursuant to Rule 15 of the Federal Rules of Civil Procedure (“FRCP 15”). (Doc. 65).
In that motion to amend, Petitioner seeks to add a claim alleging that trial counsel was
ineffective for failing to object to a defect in the indictment. (Id). Specifically, Petitioner
alleges that indictment was defective because “when . . . charging Title 18 U.S.C. § 1951 [the

2

Case: 2:16-cr-00059-MHW-MRM Doc #: 68 Filed: 04/20/18 Page: 3 of 7 PAGEID #: 227

indictment] did not provide what subsection of the code [Petitioner was being charged under,
i.e. (a) or (B) . . . . {Id. at PAGEID #: 216.).
IL

DISCUSSION
A.

Petitioner’s Waiver of Attorney-Client Privilege is Sufficient

For good cause, the Court GRANTS Respondent’s unopposed motion to hold the answer
in abeyance. (Doc. 63). Respondent sought to stay the answer date until Petitioner waived the
attorney-client privilege. Petitioner already impliedly waived that privilege as it relates to the
ineffective assistance of counsel claims in his § 2255 motion. See In re Lott, 424 F.3d 446, 45254 (6th Cir. 2012) (explaining that implied waiver of privilege typically occurs in habeas
proceedings when a petitioner asserts that his counsel was ineffective); Shafer v. United States,
Nos. 17-cv-0423; 15-cr-0096, 2018 WL 565278, at * 3 (S.D. Ohio Jan. 25, 2018) (explaining
that courts routinely find a limited, implied waiver of attorney-client privilege in § 2255
proceedings alleging ineffective assistance of counsel). Nevertheless, it has been this Court’s
practice to require a petitioner to submit a written waiver of his attorney-client privilege when he
alleges ineffective assistance of counsel in a § 2255 motion. See, e.g., Szewczyk v. United States,
Nos. 2:ll-cv-786, 2:10-cr-91, 2013 WL 950872, at *2 (S.D. Ohio Mar. 12, 2013), adopted by,
2013 WL 1664827 (S.D. Ohio April 17, 2013).
Although Petitioner’s unopposed motion to waive attorney-client privilege is incorrectly
captioned, the Court accepts that it serves as a formal waiver in this action. Accordingly,
Petitioner’s motion to waive privilege (Doc. 66) is also GRANTED. The Court instructs that the
waiver of privilege is limited solely to any communications between Petitioner and his former
counsel which may be pertinent to his claims for relief. In re Lott, 424 F. 3d at 453 (explaining

3

Case: 2:16-cr-00059-MHW-MRM Doc #: 68 Filed: 04/20/18 Page: 4 of 7 PAGEID #: 228

that “[c]ourts must ‘impose a waiver no broader than needed to ensure the fairness of the
proceedings before it.’”) (quoting Bittaker v. Woodford, 331 F. 3d 715, 718-20 (9th Cir. 2003)).
B.

Petitioner’s Amendment is Futile

Petitioner’s Motion to Amend his § 2255 motion (Doc. 65), is governed by FRCP 15.
See 28 U.S.C. § 2242; see also Rule 12 of the Federal Rules Governing Section 2255
Proceedings in the United States District Courts. FRCP 15(a)(2) provides that a court should
“freely give leave” to amend “when justice so requires.” Leave to amend should, however, “be
denied when the amendment would be futile.” Courie v. Alcoa Wheel & Forged Prods., 577
F.3d 625, 633 (6th Cir. 2009) (quoting Crawford v. Roane, 53 F.3d 750, 753 (6th Cir. 1995)).
“Amendment of a complaint is futile when the proposed amendment would not permit the
complaint to survive a motion to dismiss.” Miller v. Calhoun Cty., 408 F.3d 803, 817 (6th Cir.
2005) (citing Neighborhood Dev. Corp. v. Advisory Council on Historic Pres., 632 F.2d 21, 23
(6th Cir. 1980)).
The Sixth Circuit Court of Appeals has held that an attempt to amend a § 2255 motion is
futile if the amendment is barred by the one-year statute of limitations of the Antiterrorism and
Effective Death Penalty Act (“AEDPA”), 28 U.S.C. § 2255(f)(1). See Oleson v. United States,
27 F. App’x 566, 570 (6th Cir. 2001) (holding that a motion to amend was futile because it was
barred by the AEDPA’s one-year statute of limitation).

An amendment is barred by the

AEDPA’s one-year statute of limitations when it is untimely and it does not “relate back” to a
timely original § 2255 motion. See Dado v. United States, No. 17-2013, 2018 WL 1100279, at
* 3 (6th Cir. Feb. 15, 2018) (citing Mayle v. Felix, 545 U.S. 644, 650 (2005)); United States v.
Clark, 637 F. App’x 206, 209 (6th Cir. 2016); Howard v. United States, 533 F.3d 472, 475-76
(6th Cir. 2008)). An amendment relates back to an original § 2255 motion if it “arose out of the

4

Case: 2:16-cr-00059-MHW-MRM Doc #: 68 Filed: 04/20/18 Page: 5 of 7 PAG El D #: 229

same conduct, transaction, or occurrence” set forth in the original pleading. Clark, 637 F. App’x
at 209 (citing FRCP 15(c)(1)(B)). On the other hand, an amendment does not relate back if it
“asserts new grounds for relief supported by facts that differ in both time and type from those the
original pleading set forth.” Dado, 2018 WL 1100279, at * 3 (citing Mayle, 545 U.S. at 650).
Accordingly, when presented with an untimely amendment, a court must determine if it
addresses the same “common core of operative facts” as the initial § 2255 motion. Clark, 637 F.
App’x at 209 (citing Mayle, 545 U.S. at 664).
In this case, Petitioner was sentenced on February 13, 2017. (Doc. 47). He had fourteen
days to directly appeal that judgment. See Fed. App. R. 4(b)(1)(A). Petitioner did not file a
timely appeal. Instead, he filed an untimely appeal which the Court of Appeals dismissed sua
sponte. (Doc. 56). Because he did not file a timely appeal, Petitioner’s conviction became final
when the fourteen-day period to file an appeal expired on February 27, 2017. See Gillis v.
United States, 729 F. 3d 641, 644 (6th Cir. 2013) (explaining that “[a] conviction becomes final
when the time for a direct appeal expires and no appeal has been filed, not when an untimely
appeal has been dismissed”). Pursuant to § 2255(f)(1), the one-year statute of limitations to file a
motion to vacate under § 2255 begins to run the next day, and it expired on February 28, 2018.
Thus, Petitioner’s proposed amendment, filed March 16, 2018, is untimely.
The undersigned further concludes that Petitioner’s untimely amendment does not relate
back to the original § 2255 motion. (Doc. 60). The original § 2255 motion sets forth the
following grounds alleging that trial counsel was ineffective at the plea agreement and
sentencing stages:
Ground One: [Petitioner] was denied his Sixth Amendment right to effective
assistance of counsel . . . when court appointed counsel , . . knowingly allowed
[Petitioner] to take a plea agreement while on the prescription drug (Remeron)
that affected [Petitioner’s] right to understand anything during the plea agreement.
5

Case: 2:16-cr-00059-MHW-MRM Doc #: 68 Filed: 04/20/18 Page: 6 of 7 PAGEID #: 230

★ ie *

Ground Two: [Petitioner] was denied his Sixth Amendment right to effective
assistance of counsel . . .when counsel . . . failed to review [Petitioner’s]
Presentence Investigation report with him and counsel failed to make any
objections at sentencing that prejudiced [Petitioner’s] sentence.
(Doc. 60, at PAGEID #: 195-96). In contrast, the proposed amendment asserts that trial counsel
was ineffective at the pre-trial stage for failing to object to an alleged defect in the indictment.
(Doc. 65). To be sure, the grounds asserted in the amendment and the original motion all involve
ineffective assistance of counsel claims. Nevertheless, Petitioner cannot satisfy the relate back
standard by raising ineffective assistance claims in his original motion and then amending to
assert an ineffective assistance claim that is based upon allegations of an entirely distinct type of
attorney malfeasance. See Watkins v. Deangelo-Kipp, 854 F.3d 846, 850 (6th Cir. 2017) (citing
United States v. Ciampi, 419 F.3d 20, 24 (1st Cir. 2005)).
Because the untimely amendment seeks to raise a new ground for relief based on facts
that are different in both time and type than those alleged in the original § 2255 motion, the
undersigned finds that the untimely amendment does not relate back. See Clark, 637 F. App’x at
209 (finding that an amendment alleging that appellate counsel performed ineffectively by
failing to challenge drug amounts used to calculate a petitioner’s base offense level did not relate
back to an original § 2255 motion alleging that appellate counsel performed ineffectively by
failing to challenge career offender enhancement); Evans v. United States, 284 F. App’x 304,
305, 313 (6th Cir. 2008) (denying discovery to determine whether trial counsel gave petitioner
incorrect advice regarding sentence he would receive through a plea agreement; an ineffective
assistance claim based on such facts would not relate back to an original § 2255 motion alleging
that trial counsel performed ineffectively by failing to pursue particular avenues to impeach a

6

Case: 2:16-cr-00059-MHW-MRM Doc #: 68 Filed: 04/20/18 Page: 7 of 7 PAGEID #: 231

witness).

Accordingly, because Petitioner’s amendment appears to be time barred, it is

RECOMMENDED that the Motion to Amend (Doc. 65) be DISMISSED.
III.

CONCLUSION
For the reasons stated, Respondent’s Motion to Hold Answer in Abeyance (Doc. 63) and

Petitioner’s Motion to Waive Attorney Client Privilege (Doc. 66), are GRANTED. Further, it is
RECOMMENDED that Petitioner’s Motion to Amend (Doc. 65) be DENIED.
IT IS SO ORDERED.
Date: April 20, 2018

/s/ Kimberly A. Jolson
KIMBERLY A. JOLSON
UNITED STATES MAGISTRATE JUDGE

7

